                                                                      -

                                  CLOSEOUT FOR M93020008




~n(.~ebruary 1993 a program officer1told OIG that he had received a proposal2 from four
PIS that contained inaccurate Current and Pending Support forms. The program officer said
                                         l), 1-                   (subject I 2),
                                                                              - \
                                   subject 4) had also submitted other proposals to NSF that did
not truthfully state their current and pending support.

OIG reviewed 27 NSF proposals submitted by the subjects (either collaboratively or
individually) between 1987 and 1996 as well as 3 awards by. other federal agencies to
subjects 2 and 4. OIG found that many of the proposals contained Current and Pending
Support statements that failed to declare that subjects 1, 2, and 3 received support under two
of the awards from other federal agencies and that seven of these NSF proposals resulted in
awards. Subject 4 had not misstated his Current and Pending Support on the proposals in this
review.

NSF's Grant Proposal Guide (NSF 95-27) states that the a'pplicant is to provide information
about

        all current and pending support for ongoing projects and proposals, including
        subsequent funding in the case of continuing grants. All current project
        support from whatever source (e.g., Federal, State or local government
        agencies, private foundations, industrial or other commercial organizations)
        must be listed. The proposed project and all other projects or activities
        requiring a portion of time of the PI and other senior personnel should be
        included, even if they receive no salary support from the project@). The
        number of person-months per year to be devoted to the projects must be stated,
        regardless of source of support. Similar information must be provided for all
        proposals already submitted or submitted concurrently to other possible
        sponsors, including NSF.[~]




(subject 3).
' Similar explanations of NSF's requirements for reporting current and pending support are found in each of the
successively issued Grantsfor Scientifc Research and Education, NSF's application guide, that were in force during
the period spanned by this case.


                                             Page 1 of 2
                             CLOSEOUT FOR M93020008

In response to OIG's request for information, subjects 1 and 3 said they thought they were to
list only those grants on which they were named as the PI. They did not realize that they
were to submit information about grants from which they received support but were not
named as the PI. Subject 2 said the information in his Current and Pending Support
Statements reflected his knowledge of what his support would be during the period for which
NSF support was requested, not his current and pending support at the time he submitted his
proposals.

In response to OIG's request, the three subjects submitted to the cognizant NSF program
officers corrected Current and Pending Support Statements for their currently active NSF
awards. Each of the subjects has demonstrated that they are aware of the type of information
that is to be provided on a Current and Pending Support. statement when a proposal is
submitted to NSF. OIG considers these new submissions and corrections to be a satisfactory
resolution to this case. This inquiry is closed and no further action will.be taken in this case.




cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2
